  DEPARTMENT OF HOMELAND SECURITY
      Office of Inspector General


                  Letter Report: 


            DHS Needs to Prioritize Its 

                 Cyber Assets





OIG-08-31                1           March 2008
                                                           Office of Inspector General
                                                           U.S. Department of Homeland Security
                                                           Washington, DC 20528




                                      March 26, 2008


MEMORANDUM FOR:               Elaine C. Duke
                              Acting Undersecretary for Management


FROM:                         Richard L. Skinner
                              Inspector General

SUBJECT:                       Letter Report: DHS Needs to Prioritize Its Cyber Assets

We initiated an audit to determine the Department of Homeland Security’s progress in
identifying and prioritizing its internal cyber critical infrastructure in accordance with
Homeland Security Presidential Directive 7, Critical Infrastructure Identification,
Prioritization, and Protection. This directive established a national policy for the federal
government to identify, prioritize, and protect United States critical infrastructure,
including the internal critical assets used by each department.

The department has not completed all the steps to produce a prioritized inventory of its
internal cyber critical infrastructure. Further, the department’s Management Directorate
was not coordinating related efforts to secure these assets. We recommend that the
department designate a specific office to determine protection priorities for its internal
cyber critical infrastructure. Additionally, the department should develop a process to
coordinate internal efforts to protect these assets in accordance with Homeland Security
Presidential Directive 7.

We hope our recommendations will be of assistance as you move forward to implement
actions to protect the department’s internal cyber critical infrastructure and key resources.
Should you have any questions, please call me, or your staff may contact Frank Deffer,
Assistant Inspector General, Information Technology, at (202) 254-4100.
Background

Homeland Security Presidential Directive 7 (HSPD-7), Critical Infrastructure
Identification, Prioritization, and Protection, December 2003, established a national
policy to identify and prioritize critical infrastructures. These critical infrastructures are
both physical and cyber-based, and span all sectors of the economy. According to the
National Infrastructure Protection Plan (NIPP), June 2006,

        Cyber infrastructure includes electronic information and communications
        systems, and the information contained in those systems. Computer systems,
        control systems…and networks such as the Internet are all part of cyber
        infrastructure.

Further, HSPD-7 references the USA Patriot Act of 2001 (Public Law 107-56) to define
the term “critical infrastructure” as those:

        …systems and assets, whether physical or virtual, so vital to
        the United States that the incapacity or destruction of such systems
        and assets would have a debilitating impact on security, national
        economic security, national public health or safety, or any combination
        of those matters.

The Department of Homeland Security (DHS) planned to determine protection priorities
for its internal cyber critical infrastructure using the Project Matrix methodology. Project
Matrix is a systematic approach that seeks to discover the domino or cascading effects of
the loss of critical functions and services. This is accomplished through an understanding
of how these functions and services are provided and the impact of the loss should it
occur. This approach was designed to assist the department in identifying and
prioritizing critical functions and services performed by DHS in support of national
security, economic stability, and public safety.

According to the ISSM Guide to the DHS Information Security Program, Version 2.0,
July 19, 2004, the DHS Continuity Planning Program Director is responsible for Project
Matrix and reports to the DHS Chief Information Security Officer (CISO).




                                               2

DHS Needs To Determine Protection Priorities for its Internal Cyber Critical
Infrastructure

HSPD-7 established a national policy for federal departments and agencies to identify
and prioritize their critical cyber infrastructure. In compliance with HSPD-7, DHS uses
an enterprise management tool, Trusted Agent FISMA, to identify its high-risk systems.
However, DHS has not determined which of these high-risk systems must be given
priority when allocating protection resources.

For example, according to DHS 4300A Sensitive Systems Handbook, restoration priorities
are to be based on DHS mission criticality. DHS plans for restoring critical systems
following a service disruption or disaster include the establishment of the National Center
for Critical Information Processing and Storage (NCCIPS). This center is to host
departmental applications, network connectivity, and critical data storage. Additionally,
the NCCIPS and a second data center, yet to be established, are to have “active – active”
processing capability to ensure each mission critical system has a complete disaster
recovery capability. However, the current DHS schedule for migrating systems to the
NCCIPS is not based on system criticality, but instead is based on which component can
fund the migration of a system. As a result, DHS may not be providing a secure
processing and backup facility for its most critical systems.

For prioritization purposes, the most significant assets fall within the nationally critical
category. These nationally critical assets are considered necessary for the daily operation
of the federal government. Project Matrix is a methodology that would allow DHS to set
protection priorities across the department, and thus determine which cyber assets are
nationally critical. For example, a nationally critical function of DHS is to identify,
examine, and inspect all high-risk cargo and passengers. Project Matrix Step 1 lists those
nationally critical cyber systems, including the Automated Commercial Environment
(ACE), that support this function. In accordance with HSPD-7, DHS should place a
higher protection priority on nationally critical systems, such as ACE, than it places on
systems that do not support a nationally critical function.

Within the department, the CISO has responsibility for Project Matrix. In November
2003, the DHS CISO obtained Project Matrix contract support at a cost of approximately
$1.97 million. Step 1 of Project Matrix was to produce a rank ordered list of critical
functions and services. In November 2005, the DHS CISO cancelled the Project Matrix
support contract after obtaining only 15 of 18 (79%) Project Matrix Step 1 reports from
DHS components.1 Further, in August 2007, the DHS CISO eliminated the section of the
DHS 4300A Sensitive Systems Handbook that detailed the responsibilities of the Office of
the DHS Chief Information Officer, and the DHS CISO related to HSPD-7 and Critical
Infrastructure Protection.

The DHS CISO said that he canceled the contract and removed the section from the
handbook because Project Matrix was not mentioned as a requirement in HSPD-7.

1
 The Office of Inspector General, Science and Technology Directorate, and the National Cyber Security
Division did not submit Project Matrix Step 1 reports.


                                                   3

However, when these responsibilities were removed from DHS guidance, no DHS office
was given the responsibility to identify and prioritize internal critical infrastructure assets.

According to HSPD-7,

        All Federal department and agency heads are responsible for the identification,
        prioritization, assessment, remediation, and protection of their respective internal
        critical infrastructure and key resources.

DHS could improve its ability to identify and prioritize its internal cyber critical
infrastructure by assigning an office with this responsibility. The absence of this
assigned responsibility hinders DHS’ ability to ensure that its most critical assets are
prioritized for protection.

Better Coordination Needed on DHS HSPD-7 Related Efforts

The effectiveness of HSPD-7 implementation could be improved if staff from the Office
of Security and the CIO synchronized their respective efforts to provide prioritized
protection for internal cyber critical infrastructure. Specifically, the Office of Security is
not adequately coordinating HSPD-7 related activities with the CIO.

In compliance with HSPD-7, DHS issued the Government Facilities Sector Plan.2
However, CIO staff said that they were unaware that this plan was issued. This occurred
because the Chief Security Officer, as the DHS representative to this government
coordinating council, did not distribute the Government Facilities Sector plan to the CIO.
Further, Office of Security staff did not invite CIO staff to a planning meeting to discuss
the impact that cyber security has on the Government Facilities Sector.

According to HSPD-7,

        Federal departments and agencies will identify, prioritize, and coordinate the
        protection of critical infrastructure and key resources in order to prevent, deter,
        and mitigate the effects of deliberate efforts to destroy, incapacitate, or exploit
        them.

Ineffective coordination could cause plans for protecting internal cyber critical
infrastructure to be incomplete. For example, Office of Security is responsible for
physical security of facilities. The physical security provided may need to be reassessed
if the facility contains DHS internal cyber critical infrastructure.




2
 Government Facilities – Critical Infrastructure and Key Resources as input to the National Infrastructure
Protection Plan, May 2007.


                                                    4

Recommendations

We recommend that the Undersecretary for Management take the following actions for
activities related to the management of internal cyber critical infrastructure:

   Recommendation #1: Assign responsibility and provide the necessary resources to
   determine protection priorities for the Department’s internal cyber critical
   infrastructure.

   Recommendation #2: Develop a process to coordinate the DHS internal cyber
   critical infrastructure protection activities among the Line of Business Chiefs.

Management Comments and OIG Analysis

We obtained written comments on a draft of the report from the Deputy Undersecretary 

for Management. We have included a copy of the comments in Appendix A. The 

Deputy Undersecretary concurred with both recommendations; however, she suggested 

that they should be reworded for clarity. We reviewed the Deputy Undersecretary for 

Management’s suggestions and made changes where appropriate. 


********************* 

We conducted our audit from August 2007 to March 2008 under the authority of the 

Inspector General Act of 1978, as amended, and according to generally accepted 

government audit standards.





                                           5

Appendix A
Management Response




                                                                                (lIIIJe/,Srmln~~.fiJr.Milll<lf;CliMlt
                                                                                u.s, ll,elJ:lrtmr.nl.of 1I0111e13ui! SteuriC)'
                                                                                Washington, DC 20528




                                                                                Hom:eland
                                                                                Security
                                              MAR 0 62008


         MEMORANDUM FOR:              Frank Deffer
                                      Assistant Inspector General
                                      Information Technology Audits

         FROM:                        Elaine C. Duke          9 ()A)--
                                      Deputy Under Secretar~agement

         SUBJECT:                     Letter Report: DHS Needs to Prioritize Its Cyber Assets


         Thank you for your memorandum dated January 31, 2008, regarding Office ofthe Inspector General
         draft letter report entitled, DHS Needs to Prioritize Its Cyber Assets. Your memorandum noted the
         following two recommendations:

            • "Assign responsibility and provide the necessary resources to determine protection priorities
              for its internal cyOOr critical infrastructure."

            • "Develop aprocess to coordinate the DHS internal cyber criti,cal infrastructure protection
              activities ofthe Management Directorate offices."

         I agree with both recommendations. However, Isuggest they be worded as follows for clarification:

            • "Assign responsibility and provide the necessary resources to determine protection priorities
              for the Department's internal critical infrastructure, including critical cyber infrastructure."

            • "Develop aprocess to coordinate the DHS internal critical infrastructure protection activities
              among the Line ofBusiness Chiefs."

         The ChiefAdministrative Officer is assigned the responsibility to manage the business continuity
         and mission assurance functions and will have the lead for implementing these recommendations.
Appendix B
Major Contributors to This Report


                   Roger Dressler, Director, Department of Homeland Security,
                   Information Technology Audits

                   Kevin Burke, Audit Manager, Department of Homeland Security,
                   Information Technology Audits

                   Matthew Worner, Program Analyst, Department of Homeland
                   Security, Information Technology Audits

                   Domingo Alvarez, Senior IT Auditor, Department of Homeland
                   Security, Information Technology Audits

                   Beverly Dale, Senior IT Auditor, Department of Homeland
                   Security, Information Technology Audits

                   Syrita Morgan, Management and Program Assistant, Department
                   of Homeland Security, Information Technology Audits

                   Samer El-Hage, Management and Program Assistant, Department
                   of Homeland Security, Information Technology Audits

                   Tarsha Cary, Referencer




                                       7

Appendix C
Report Distribution


             Department of Homeland Security

             Secretary
             Deputy Secretary
             Chief of Staff
             Deputy Chief of Staff
             General Counsel
             Executive Secretary
             Under Secretary, Management
             Assistant Secretary for Policy
             Assistant Secretary for Public Affairs
             Assistant Secretary for Legislative Affairs
             Chief Information Officer
             Chief Information Security Officer
             DHS Audit Liaison

             Office of Management and Budget

             Chief, Homeland Security Branch
             DHS OIG Budget Examiner

             Congress

             Congressional Oversight and Appropriations Committees, as appropriate




                                          8

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
